                                Office of Inspector General
                               Corporation for National and
                                        Community Service




      AGREED UPON PROCEDURES FOR
      CORPORATION FOR NATIONAL AND
    COMMUNITY SERVICE GRANTS AWARDED
               TO SERVE DC

            OIG REPORT NUMBER 08- 08




                        Prepared by:

                  Cotton & Company, LLP
                 635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on November 29, 2007.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than May 29, 2008, and complete its corrective
actions by November 29, 2008. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL
                                      November 29, 2007

TO:            Kristin McSwain
               Director, AmeriCorps State*National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Carol Bates (signature on file)
               Assistant Inspector General for Audit

SUBJECT:       Report 08-08, Office of Inspector General Agreed-Upon Procedures for
               Corporation for National and Community Service Grants Awarded to Serve
               DC

We contracted with the independent certified public accounting firm of Cotton & Company
LLP (Cotton) to perform agreed-upon procedures in its review of Corporation grants awarded
to Serve DC. The contract required that Cotton conduct its review in accordance with
generally accepted government auditing standards.

In its review of Serve DC, Cotton questioned Federal share costs of $70,688 and education
awards of $52,113. It also presented 12 findings on internal controls and compliance with
grant terms.

Cotton is responsible for the attached report, dated June 20, 2007, and the conclusions
expressed therein. We do not express opinions on Serve DC’s Consolidated Schedule of
Award Costs, conclusions on the effectiveness of internal controls, or compliance with laws,
regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by May 29, 2008. Notice of final action is due by November 29, 2008.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Ms. Millicent Williams, Executive Director, Serve DC
      Michael W. Gillespie, CPA, CFE, Operations Managing Partner,
        Cotton & Company LLP
      Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator

                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                                OFFICE OF INSPECTOR GENERAL
                                AGREED-UPON PROCEDURES FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                                         SERVE DC


                                                          CONTENTS


Section                                                                                                                    Page


Executive Summary ............................................................................................................ 1

Independent Accountants’ Report on Applying Agreed-Upon Procedures........................                                     4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ..............................                                7

Schedule A: Heads Up .......................................................................................................   8

Schedule B: Earth Conservation Corps.............................................................................. 13

Exhibit B: Compliance Results.......................................................................................... 19

Appendices

A: Serve DC’s Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
assistance provided to the District of Columbia Commission on National and Community
Service (Serve DC).

BACKGROUND

The Corporation supports national and community service programs that provide full- and
part-time opportunities for Americans to engage in service that fosters civic responsibility,
strengthens communities, and provides educational opportunities for those who make a
commitment to service. The AmeriCorps program is one of the Corporation’s three major
service initiatives. Approximately three-quarters of all AmeriCorps grant funding goes to
state service commissions, which award competitive grants to nonprofit groups that then
recruit AmeriCorps members to respond to local needs.

Serve DC, established in July 2000 by the Executive Order of the Mayor, has received
AmeriCorps funds since 2001. Serve DC is housed within the Executive Office of the
Mayor, receives multiple awards from the Corporation including AmeriCorps,
Administrative, Professional Development and Training, Disability, and Learn and Serve
grants. The AmeriCorps grants are annual awards passed through Serve DC to eligible
subgrantees that recruit and select volunteers who then earn living allowances and education
awards. Serve DC AmeriCorps grants funded 210 AmeriCorps members in Program Year
(PY) 2004-2005 and 249 in PY 2005-2006.

AGREED-UPON PROCEDURES SCOPE AND RESULTS

Cotton & Company performed the agreed-upon procedures detailed in the OIG’s Agreed-
Upon Procedures (AUP) Program for Corporation Awards to Grantees (including
subgrantees), dated June 2006. Our procedures covered testing of the following grants:

                                                                                      Total
Program                      Grant No.        Award Period         AUP Period        Awards
AmeriCorps-Competitive     03ACHDC001       05/01/04-04/30/07   10/01/04-09/30/06   $4,079,090
AmeriCorps-Formula         04AFHDC001       09/01/04-08/31/07   10/01/04-09/30/06   $1,156,801
Learn and Serve            03KCHDC001       10/01/03-08/31/08   01/01/05-12/31/06     $964,070
Administrative             04CAHDC001       01/01/04-12/31/06   01/01/05-12/31/06     $382,771
PDAT                       04PTHDC001       01/01/04-12/31/06   01/01/05-12/31/06     $255,313
Disability                 04CDHDC001       01/01/04-12/31/06   01/01/05-12/31/06     $114,693


We conducted our fieldwork at Serve DC and two of its four subgrantees, Heads Up and
Earth Conservation Corps (ECC) from January through June 2007.




                                               1
SUMMARY OF RESULTS

Detailed results of our agreed-upon procedures are presented in Exhibit A and supporting
schedules. As a result of applying our procedures, we questioned claimed Federal-share
costs of $70,688 and education awards of $52,113. A questioned cost is an alleged violation
of provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds or a finding that, at the time of testing, includes
costs not supported by adequate documentation.

Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards from the National Service Trust. These award amounts are not
funded by Corporation grants and thus are not included in claimed costs. As part of our
agreed-upon procedures, and using the same criteria as for claimed costs, we determined the
effect of our findings on education-award eligibility.

We summarized grant compliance results in Exhibit B. Following is a summary of those
testing results.

1.     Serve DC and its subgrantees claimed unallowable and unsupported costs.

2.     Subgrantees did not verify eligibility for all members before they began service.

3.     Serve DC did not ensure that its subgrantees completed required member criminal
       background checks before members served with children.

4.     ECC timesheets did not support member eligibility for some education awards, and,
       in some instances, timesheet hours were not always accurately recorded in the
       Corporation’s Web-Based Reporting System (WBRS).

5.     Subgrantees did not always complete member enrollment, exit, and change-of-status
       forms and enter them into WBRS in accordance with AmeriCorps requirements.

6.     Some member contracts were not signed before applicants started service, were
       missing, or did not include all required elements.

7.     Subgrantees did not always document member orientation training attendance.

8.     Subgrantees did not always conduct member evaluations that met AmeriCorps
       requirements and document all evaluations.

9.     Serve DC and subgrantee financial management systems did not adequately account
       for and report grant costs in accordance with Federal requirements.

10.    Serve DC and Heads Up did not ensure the allowability of claimed match costs.

11.    Serve DC did not ensure that subgrantees complied with AmeriCorps requirements.


                                              2
12.    Serve DC did not adequately document reviews of subgrantee OMB Circular A-133
       audit reports.

EXIT CONFERENCE

We conducted an exit conference with Serve DC representatives on July 10, 2007.
Following that conference, we issued a draft report for comment to both Serve DC and the
Corporation. Serve DC’s response is in Appendix A and generally summarized in the body
of the report. The Corporation did not have specific comments but intends to respond in its
management decision at a later date (see Appendix B).




                                              3
June 20, 2007


Office of Inspector General
Corporation for National and Community Service


                          INDEPENDENT ACCOUNTANTS’ REPORT ON
                           APPLYING AGREED-UPON PROCEDURES


Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures (AUP) Program for Corporation Awards to Grantees (including Subgrantees),
June 2006. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to Serve DC for the
awards detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been requested
or any other purpose.

Our procedures covered testing of the following grants:

                                                                                     Total
Program                     Grant No.        Award Period        AUP Period         Awards
AmeriCorps-Competitive     03ACHDC001      05/01/04-04/30/07   10/01/04-09/30/06   $4,079,090
AmeriCorps-Formula         04AFHDC001      09/01/04-08/31/07   10/01/04-09/30/06   $1,156,801
Learn and Serve            03KCHDC001      10/01/03-08/31/08   01/01/05-12/31/06     $964,070
Administrative             04CAHDC001      01/01/04-12/31/06   01/01/05-12/31/06     $382,771
PDAT                       04PTHDC001      01/01/04-12/31/06   01/01/05-12/31/06     $255,313
Disability                 04CDHDC001      01/01/04-12/31/06   01/01/05-12/31/06     $114,693




                                              4
We performed testing at Serve DC and at two of its AmeriCorps subgrantee sites, Earth
Conservation Corps (ECC) and Heads Up. We selected and tested:

       •      26 Federal and 13 match-cost transactions at Serve DC
       •      23 Federal and 14 match-cost transactions at Heads Up
       •      22 transactions at ECC

As discussed in Schedule B, we could not reconcile and identify specific transactions claimed
by ECC in Program Year (PY) 2004-2005 and PY 2005-2006. Therefore, we considered
Federal share and match costs as a whole.

We also tested certain grant compliance requirements by sampling 65 subgrantee members.
We performed all applicable testing procedures in the AUP Program on each sample
transaction or member file. At the request of the OIG, we expanded testing at ECC to
include timesheets for nine additional members in PY 2004-2005 and six additional members
in PY 2005-2006.

                Subgrantee                    PY 2004-2005    PY 2005-2006
                ECC                                 9               9
                ECC Timesheets Only                 9               6
                Heads Up                           21              26

RESULTS OF AGREED-UPON PROCEDURES

The detailed results of our agreed-upon procedures on claimed costs are presented in
Exhibit A and the supporting schedules. As a result of applying our procedures, we
questioned claimed Federal-share costs of $70,688 and education awards of $52,113. A
questioned cost is an alleged violation of provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of funds
or a finding that, at the time of testing, includes costs not supported by adequate
documentation.

Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards from the National Service Trust. These award amounts are not
funded by Corporation grants and thus are not included in claimed costs. As part of our
agreed-upon procedures and using the same criteria as that for claimed costs, we determined
the effect of our findings on education award eligibility.

We have summarized results of testing grant compliance in Exhibit B. We were not engaged
to, and did not perform an examination, the objective of which would be expression of an
opinion on the subject matter. Accordingly, we do not express such an opinion. Had we
performed other procedures, other matters might have come to our attention that would have
been reported to you.




                                             5
This report is intended solely for the information and use of the OIG, Corporation, Serve DC,
and U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                              6
                                                                               EXHIBIT A


                                    SERVE DC
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
              CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                    Questioned
                                                                    Education
Award                        Awarded       Claimed     Questioned    Awards      Reference
03ACHDC001
  City Year                  $1,364,000   $1,218,426
  Heads Up                    2,715,090   1,545,243     $15,792       $4,863     Schedule A
Total                        $4,079,090   $2,763,669    $15,792       $4,863
04AFHDC001
  Latin America Youth         $620,000     $438,990
  Earth Conservation Corps    536,801       389,613     $54,876     $47,250      Schedule B
Total                        $1,156,801    $828,603     $54,876      $47,250

03KCHDC001                    $964,070     $477,241
04CAHDC001                    $382,771     $327,658
04PTHDC001                    $255,313     $159,667
04CDHDC001                    $114,693      $66,369
Total                        $6,952,738   $4,623,207    $70,688      $52,113




                                             7
                                                                                    SCHEDULE A


                                     SERVE DC
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                             HEADS UP


                                                                         Amount        Notes
     Claimed Federal Costs                                             $1,545,243

     Questioned Federal Costs:
     Member living allowances for third-term members                       $5,381        1
     Unallowable labor costs: fundraising                                   1,925        2
     Living allowance for prior-year members and hourly living              1,510        3
      allowance
     Duplicate benefit costs                                                1,497        4
     End-of-term evaluation not performed                                   1,474        5
     Unallowable liability insurance                                        1,204        6
     Unallocable labor costs: program development and other program         1,147        7
     Inadequate citizenship documentation                                   1,026        8
     Unallocable labor costs: administration                                  628        9
     Total Questioned Federal Costs                                       $15,792

     Questioned Education Awards: service before signed contract           $4,863       10



1.        Heads Up used Federal funds to pay living allowances for two third-term members in
          PY 2004-2005. AmeriCorps Provisions, B.12., Post-Service Education Award, states
          that no Corporation or other Federal funds may be used to provide member support
          costs for a third term or subsequent term of service in an AmeriCorps State or
          National Program. Heads Up did not have a system in place to ensure that third-term
          members were not paid a living allowance with Federal funds. We questioned $5,381
          of living allowance and fringe benefits claimed for the third-term members.

2.        Heads Up claimed $1,925 of labor and benefits for the portion of staff time spent
          performing fundraising activities. According to OMB Circular A-122, Cost
          Principles for Non-Profit Organizations, Attachment B, paragraph 17, Fundraising
          and investment management costs, states that the costs of organized fundraising,
          including financial campaigns, endowment drives, solicitation of gifts and bequests,
          and similar expenses incurred solely to raise capital or obtain contributions are
          unallowable. We questioned the $1,925 of labor and benefits claimed for the
          Executive Director’s fundraising activities.




                                                  8
3.   Heads Up claimed $1,510 of living allowance paid to five PY 2003-2004 members in
     PY 2004-2005. Heads Up could not provide documentation that it obtained approval
     to claim living allowances for these members. OMB Circular A-110, Uniform
     Administrative Requirements for Grants and Agreements With Institutions of Higher
     Education, Hospitals, and Other Non-Profit Organizations, Subpart C. 28., Period of
     availability of funds, states that, where a funding period is specified, a recipient may
     charge to the grant only allowable costs resulting form obligations incurred during the
     funding period.

     In addition, Heads Up paid $725 of the $1,510 of living allowance to two Federal
     Work Study members who worked hours in excess of their Federal Work Study
     award. AmeriCorps Provisions B.11.h., Federal Work Study, states that if members
     receive a living allowance for any service beyond hours worked, at least 15 percent of
     the living allowance amount must be provided from non-Federal sources.

     Further, the reimbursement amount to the members’ university was based on the
     number of hours served by the members. AmeriCorps Provisions 11.b, Living
     Allowance Distribution, states that programs must not pay a living allowance on an
     hourly basis, and the living allowance should not fluctuate based on the number of
     hours served by the member in a given period. Heads Up intended to pro-rate
     member living allowances and used the number of hours served by the members as a
     basis for its calculation. We questioned $1,510 of living allowance claimed for these
     members.

4.   Heads Up claimed duplicate benefit transactions from PY 2003-2004 totaling $1,497.
     According to 45 CFR § 2543.21(b), recipient financial management systems must
     provide for accurate, current, and complete disclosure of financial results of each
     Federally sponsored program. We questioned duplicate benefit transactions of
     $1,497.

5.   Heads Up did not provide an end-of-term evaluation for a PY 2004-2005 member
     who served a second term. AmeriCorps Provisions, B.7.g., Performance Reviews,
     requires mid-term and end-of-year member performance evaluations. According to
     45 CFR § 2522.220(c), Eligibility for Second Term, a participant is not eligible for a
     second or additional term of service and/or for an AmeriCorps education award
     without satisfactory performance evaluations. We questioned the member’s PY
     2005-2006 Federal-share living allowance and fringe benefits of $1,474 because,
     without a final evaluation, the member was ineligible for a second term. We did not
     question an education award for this member, because the member was still serving
     during our fieldwork and had not earned an education award.

6.   Heads Up claimed $1,204 of general liability insurance as direct Federal costs in PY
     2004-2005. According to 45 CFR § 2510.20 Definitions, organizations that do not
     have established indirect cost rates for Federal awards, administrative costs include
     costs for general liability insurance that protects the organization or organizations
     responsible for operating a program or project, other than insurance costs solely


                                            9
     attributable to a program or project. Heads Up claimed these costs because it did not
     know how to correctly treat them. It refrained from claiming general liability
     insurance as direct costs once it learned that general liability insurance should be
     treated as indirect costs. Heads Up did not, however, review claimed costs to identify
     general liability insurance costs previously claimed as direct costs. We questioned
     the $1,204 of general liability insurance.

7.   Heads Up claimed $1,147 of salaries and benefits for the portion of staff time spent
     on program activities not allocable to the AmeriCorps program. In addition to
     performing direct program supervision, the staff also spent time performing program
     development and other program activities.

     Heads Up described program development activities as strategic planning, goal
     setting, monitoring of social issues and trends affecting program recipients,
     presenting reports to the Board of Directors, and meeting with college partners and
     educators. Heads Up described other program activities as attending meetings with
     community organizations that develop policy regarding children and youth, and with
     other providers of youth services.

     According to 45 CFR § 2510.20, Definitions, program costs are expenses directly
     related to a program or project, including its operations and objectives. Further,
     program costs include costs for staff who recruit, train, place, support, coordinate, or
     supervise participants and costs for staff who work in a direct program or project
     support, operational, or oversight capacity. We questioned the $1,147 of unallocable
     labor costs.

8.   Of the 47 member files we sampled, one did not contain acceptable documentation to
     support citizenship. Heads Up was unaware that Social Security cards and driver’s
     licenses were not adequate to support proof of citizenship until informed by Serve DC
     during a monitoring visit in May 2006. We questioned living allowance and fringe
     benefits of $1,026 for the PY 2005-2006 member without citizenship documentation.
     We did not question an education award for this member, because the member had
     not completed service and earned an education award at the time of our fieldwork.

     According to 45 CFR § 2522.200, What are the eligibility requirements for an
     AmeriCorps participant, every AmeriCorps participant must be a citizen, national, or
     lawful permanent resident of the United States.

9.   Heads Up claimed $628 of salary expenses as Federal costs in PY 2005-2006 for the
     portion of time that staff spent on administration of the organization. Heads Up
     defined administrative activities as those activities considered allocable and shared by
     all functions and necessary to support the programmatic functions of the agency.
     Administrative activities performed by the staff are included in the 5 percent
     administrative costs. In lieu of an indirect cost agreement, grantees may charge a
     fixed 5 percent of Federal funds expended for administrative costs. Serve DC passed
     on the fixed 5 percent to Heads Up.


                                            10
       According to 45 CFR § 2510.20 Definitions, administrative costs are defined as
       general or centralized expenses for overall administration of an organization. Heads
       Up was unaware that administration costs were included in the 5 percent
       administrative costs. We questioned salary expenses of $628.

10.    Members started service before signing member contracts (16 in PY 2004-2005 and
       23 in PY 2005-2006). AmeriCorps Provisions, B.8.d., Member Enrollment
       Procedures, states that an individual is enrolled as an AmeriCorps member when he
       or she signs a member contract. Heads Up did not know why the contracts for these
       members were signed late, but believed that original contracts were lost, and the
       available contracts were replacements.

       We questioned education awards of $4,863 for three members in PY 2004-2005 who
       did not meet minimum service hours required for quarter- and half-time education
       awards when we deleted hours for service performed before member contracts were
       signed, as detailed below:

                                           Member 1       Member 2       Member 3
       Timesheet hours                            510          450         1019.5
       Hours prior to signing contract            165          118         1019.5
       Eligible service hours                     345          332             0.0

       Service hours required for award           450          450          900.0

       Questioned Education Award            $1,250         $1,250         $2,363

Serve DC’s Response: Serve DC concurred in part with questioned costs in Schedule A. It
did not concur with questioned costs in Notes 4 and 7 and the questioned education award for
Member 3 in Note 10. Its responses are summarized below.

       •      Note 4, Duplicate Benefit Costs. Serve DC stated that Heads Up resubmitted
              a financial report on April 27, 2007, that corrected this error and did not
              include questioned duplicate benefit transactions.

       •      Note 7, Unallocable Labor Costs. Serve DC considers program
              development and other program costs as appropriate program costs.

       •      Note 10, Questioned Education Awards. Serve DC stated that Heads Up
              provided a copy of the signed member contract for Member 3 at the exit
              conference on June 7, 2007.

Accountants’ Comments: Except for Notes 4, 7, and 10, Serve DC’s corrective actions, as
described, are responsive to our recommendations. Our specific comments follow.



                                             11
   •      Note 4, Duplicate Benefit Costs. Duplicate benefits questioned in Note 4
          were PY 2003-2004 benefit costs claimed in the March 2006 FSR. The April
          27, 2007, financial reports corrected errors identified in the reconciliation of
          PY 2004-2005 and PY 2005-2006. The corrected financial reports did not
          include information from PY 2003-2004.

   •      Note 7, Unallocable Labor Costs. We recommend that the Corporation
          determine if program development and other program costs are appropriate
          program costs.

   •      Note 10, Questioned Education Awards. Heads Up provided a copy of a
          signed member contract for the Member 3 at the June 7, 2007, exit
          conference. This contract was, however, for PY 2003-2004 and not PY 2004-
          2005. The contract provided by Heads Up was signed by the member on
          April 18, 2004, but the member did not begin PY 2004-2005 service until
          June 10, 2005.

We recommend that the Corporation use an audit-like and in-depth approach to resolve
and recover questioned costs.




                                         12
                                                                                 SCHEDULE B


                                   SERVE DC
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                EARTH CONSERVATION CORPS


                                                                      Amount        Notes
     Claimed Federal Costs                                           $389,613

     Questioned Federal Costs:
      Funds budgeted for member support costs used for other costs    $25,340         1
      Labor cost claimed at budgeted percentages                       20,419         2
      Unallowable accounting service costs                              2,800         3
      Insufficient citizenship documentation                            2,255         4
      Living allowance paid to members who left program without
         completing all requirements                                    2,016         5
      Living allowance claimed for non-AmeriCorps members               1,068         6
      Living allowance claimed for suspension period                      801         7
      Unsupported costs                                                   104         8
      Consultant expenses in excess of limit                               73         9
     Total Questioned Federal Costs                                   $54,876

     Questioned Education Awards:
       WBRS hours discrepancies                                       $42,525        10
       Service before signed contract                                   4,725        11
     Total Questioned Education Awards                                $47,250



1.      ECC used $25,340 budgeted for member support for staff salary costs in PY 2004-
        2005. It did not provide documentation of prior written approval for deviating from
        its approved budget. AmeriCorps Provisions, B.15.c., Budgetary Changes, states that
        the grantee must obtain prior written approval of the Corporation’s Office of Grants
        Management before deviating from the approved budget by reallocating funds from
        the member support cost category to other categories of the approved budget. We
        questioned $25,340 for reallocated costs claimed without prior written approval.

2.      ECC claimed labor costs based on grant budget estimates and did not use timesheets
        to support claimed labor costs. OMB Circular A-122, Cost Principles for Non-Profit
        Organizations, Attachment B, paragraph, 8.m., Support of salaries and wages, states
        that the distribution of salaries and wages to awards must be supported by personnel
        activity reports that reflect an after-the-fact determination of the actual activity of
        each employee. In addition, budget estimates or estimates determined before services


                                                13
     are performed do not qualify as support for charges to awards. We interviewed
     employees, whose labor costs were claimed, to determine the percentage of effort
     they spent on the AmeriCorps program. We calculated and questioned the $20,419 of
     unallowable labor costs as shown below:

                                Claimed          Actual      Questioned Labor
                                 Effort          Effort      and Benefit Costs
         PY 2004-2005
            Employee 1           100%              50%               $8,716
            Employee 2           100%              95%                3,091
         PY 2005-2006
            Employee 1           100%              50%                2,978
            Employee 2           100%              95%                1,088
            Employee 3            50%              20%                4,546
                                                                    $20,419


3.   ECC claimed accounting service expenses in PY 2004-2005. Accounting expenses
     are included in the 5 percent grant portion approved for administrative costs.
     According to 45 CFR, § 2510.20, Definitions, administrative costs for organizations
     that do not have established indirect cost rates for Federal awards include costs for
     financial, accounting, auditing, contracting, or general legal services except when
     specifically approved in writing by the Corporation as program costs. The subgrantee
     was not aware that these costs were included in its 5 percent administrative costs. We
     questioned $2,800 of accounting expenses.

4.   ECC did not provide documentation to support proof of citizenship for one of nine
     sampled members in PY 2005-2006. According to 45 CFR § 2522.200, What are the
     eligibility requirements for an AmeriCorps participant?, every AmeriCorps
     participant is required to be a citizen, national, or lawful permanent resident alien of
     the United States. AmeriCorps Provisions, B.8.d., Member Enrollment Procedures,
     states that an individual is enrolled as an AmeriCorps member when the program has
     verified the member’s eligibility to serve. We questioned $2,255 of living allowance
     and benefits for the member. We did not question an education award for this
     member because, at the time of our fieldwork, the member was still serving and had
     not earned an education award.

5.   ECC claimed $2,016 of lump-sum living allowance and benefits paid to two members
     who left the program early, did not complete their service, and did not earn education
     awards. AmeriCorps Provisions, B.11.b, Living Allowance Distribution, states that
     the living allowance is designed to help members meet necessary living expenses
     incurred while participating in the AmeriCorps Program. We questioned $2,016 of
     lump-sum living allowance and benefits.

6.   ECC claimed $1,068 of living allowance and benefits paid to four individuals who
     were not in the AmeriCorps program in PY 2004-2005. AmeriCorps Provisions,


                                            14
      B.11.b. Living Allowance Distribution, states that the living allowance is designed to
      help members meet necessary living expenses incurred while participating in the
      AmeriCorps Program. We questioned the $1,068 of living allowance and benefits
      paid to non-members.

7.    ECC claimed $801 of living allowance payments to two PY 2004-2005 members who
      were suspended from the program. ECC paid the living allowances that these
      members would have earned during the suspension periods in a lump-sum upon their
      suspension from the program. AmeriCorps Provisions, B.10.a, Temporary
      Suspension of Service, states that members who are suspended for minor disciplinary
      reasons may not receive a living allowance for the suspension period. We questioned
      $801 of living allowance paid to the members.

8.    ECC claimed $104 for vehicle repair and provided only a credit card statement as
      support. According to 45 CFR § 2541.200 (b)(6) Source documentation, accounting
      records must be supported by source documentation such as cancelled checks and
      paid bills. Further, OMB Circular A-122, Cost Principles for Non-Profit
      Organizations, Attachment A.2, Factors affecting allowability of costs, states an
      award cost must be adequately documented to be allowable. Neither ECC nor the
      entity that repaired the vehicle could locate a repair invoice. We questioned $104 of
      vehicle-repair costs.

9.    ECC claimed consulting service expenses of $1,750 for a three-day training workshop
      held in PY 2004-2005. The average daily rate for the training workshop was $583.
      AmeriCorps General Provisions, B.4. Consultant Services, states that payments to
      individuals for consultant services under this grant will not exceed $540 per day.
      ECC was unaware of the limit for consultant services. We questioned $73 of Federal
      share for consultant costs claimed in excess of the daily ceiling.

10.   Timesheets did not support WBRS hours for some sampled members:

      •      Timesheets did not support hours recorded in WBRS for eight of nine sampled
             members in PY 2004-2005. At the request of the OIG, we expanded WBRS
             hours testing for nine additional members in PY 2004-2005. Timesheets did
             not support WBRS hours for these nine additional members.

      •      Timesheets did not support hours recorded in WBRS through February 2007
             for all nine sampled PY 2005-2006 members. At the request of the OIG, we
             expanded WBRS hours testing for six of nine sampled members through the
             end of the program year and for an additional six members. The timesheets
             did not support WBRS hours for the 12 members included in the expanded
             testing.

      AmeriCorps Provisions, C.22.c.ii., AmeriCorps Members, requires that grantees keep
      time-and-attendance records for all AmeriCorps members to document their
      eligibility for in-service and post-service benefits. The Corporation uses time-and-


                                            15
      attendance information in WBRS to track member status, which forms the basis for
      calculating education awards.

      Member timesheets were missing and totals were incorrect, thus inaccurate hours
      were reported in WBRS. Actual hours supported by timesheets for nine PY 2004-
      2005 members and eight PY 2005-2006 members were insufficient to meet the
      service-hour requirement. We questioned education awards of $42,525 for the PY
      2004-2005 members, because they did not meet the 1,700-minimum-hour
      requirement.

                                        WBRS          Timesheet
                        Member          Hours           Hours
                          1             1,805             0
                          2             1,960             0
                          3             2,008             0
                          4             1,904             0
                          5             1,784             0
                          6             1,818             0
                          7             2,003             0
                          8             1,803             0
                          9             1,809             0

      Eight members in PY 2005-2006 did not meet the 1,700-hour-minimum requirement.
      We did not, however, question education awards totaling $37,800, because ECC had
      not certified in WBRS that the following eight members had earned the awards.

                            WBRS          Timesheet     Sign-In Sheets and
            Member          Hours           Hours       Time Card Hours
              1             1,759            1296               1,037
              2             1,823            1258               1,086
              3             1,748              26                 833
              4             1,855              68                 931
              5             1,741               0                 863
              6             1,733               0                 916
              7             1,827               0               1,042
              8             1,796               0                 893

11.   Five members in PY 2004-2005 and eight members in PY 2005-2006 started service
      before signing member contracts. AmeriCorps Provisions, B.8.d., Member
      Enrollment Procedures, states that an individual is enrolled as an AmeriCorps
      member when he or she has signed a member contract.

      We questioned education awards of $4,725 for one member in PY 2004-2005. This
      member did not meet the minimum 1,700 service hours required for full-time
      education awards when we deleted hours for service performed before a member
      contract was signed, as detailed below:


                                          16
                     Timesheet hours                         1,780
                     Hours prior to signing contract           110
                     Eligible service hours                  1,670

                     Service hours required for award        1,700

                     Questioned Education Award             $4,725

Serve DC’s Response: Serve DC concurred in part with questioned costs in Schedule B. It
did not concur with the questioned costs in Notes 2, 3, 4, and 9.

       •      Note 2, Labor Cost. Serve DC considers $11,807 salary and benefit costs
              questioned in Note 2 to be included in the $25,340 of salary and benefit costs
              questioned in Note 1.

       •      Note 3, Unallowable Accounting Service Costs. Serve DC stated that
              charges for the questioned accounting services were included in the Earth
              Conservation Corps 5% Corporation Fixed Amount line item and represent
              the only charges the program made to this line item.

       •      Note 4, Insufficient Citizenship Documentation. ECC has provided Serve
              DC with required citizenship documentation of AmeriCorps eligibility
              requirements.

       •      Note 9, Consultant Expenses. ECC paid $1,750 to training company for
              three days of training provided by two trainers. Two trainers each providing
              three days of training equals a $292 daily rate, well below the maximum $540
              permitted per AmeriCorps provisions.

Accountants’ Comments: Except for Notes 2, 3, 4, and 9, Serve DC’s corrective actions, as
described, are responsive to our recommendations. Our specific comments follow.

       •      Note 2, Labor Cost. As discussed in the report section titled Compliance
              Results, Item 9, ECC’s accounting system did not reconcile to costs claimed
              on its FSRs and PERs. Because of this, we were unable to determine if the
              $11,807 of questioned salaries and benefits questioned in Note 2 was also
              questioned in Note 1.

       •      Note 3, Unallowable Accounting Service Costs. As discussed in the
              Compliance Results section, Item 9, ECC’s accounting system did not
              reconcile to costs claimed on its FSRs and PERs. The documentation
              provided by ECC indicated that accounting service costs questioned in Note 3
              were claimed as direct costs were not included in the 5% Corporation Fixed
              Amount.



                                             17
   •      Note 4, Insufficient Citizenship Documentation. ECC did not provide
          citizenship documentation during fieldwork. If it does provide this
          documentation as it states, this will be respond to the condition cited.

   •      Note 9, Consultant Expenses. Documentation provided by ECC named two
          individuals as trainers, but did not indicate number of hours or days worked
          by the two trainers.

We recommend that the Corporation use an audit-like and in-depth approach to resolve
and recover questioned costs.




                                        18
                                                                                  EXHIBIT B


                                  SERVE DC
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                             COMPLIANCE RESULTS


1.     Serve DC and its subgrantees claimed unallowable and unsupported costs.

The notes to Schedules A and B describe questioned costs of $70,688, which are summarized
in Exhibit A. A questioned cost is an alleged violation of provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds or a finding that, at the time of testing, such cost is not supported by
adequate documentation.

Recommendation: We recommend that the Corporation follow up with Serve DC to
determine the amount of costs that should be disallowed and recovered. In addition, we
recommend that the Corporation calculate allowable administrative costs after the final
determination of allowable costs and recover and disallow administrative costs.

Serve DC’s Response: Serve DC concurred in part with this finding. It did not concur with
questioned costs in Schedule A, Notes 4 and 7, and questioned education award for Member
Three in Schedule A, Note 10. Serve DC also did not concur with the questioned costs in
Schedule B, Notes 2, 3, 4, and 9.

Serve DC has taken several steps to ensure that subgrantees have sound financial
management policies and procedures, including distributing a Program Director Handbook,
requiring high-risk programs to submit receipts with monthly reimbursement requests,
conducting financial management training during annual program director training, and
providing financial management technical and training assistance opportunities through
Corporation providers.

Accountants’ Comments: Serve DC’s specific comments on questioned costs are detailed in
Schedules A and B. We recommend that the Corporation use an audit-like and in-depth
approach to resolve and recover questioned costs.

2.     Subgrantees did not verify eligibility for all members before they began service.

We tested member files for 65 members at two subgrantees. The file for one member at ECC
did not contain citizenship documentation. The files for five members at Heads Up
contained documentation that is unacceptable to support citizenship, such as Employment
Eligibility Verification (I-9) forms documenting the review of member Social Security cards
and driver’s licenses. In addition, documentation for 10 Heads Up members indicated that
verification of citizenship was performed from 11 to 385 days after the members started
service.


                                             19
According to 45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. AmeriCorps Provisions, B.8.d., Member
Enrollment Procedures, states that an individual is enrolled as an AmeriCorps member when
the program has verified member eligibility to serve.

Heads Up was unaware that Social Security cards and driver’s licenses were inadequate
support for citizenship until informed by Serve DC during a monitoring visit. After we
discussed the issue with the Heads Up representatives, Heads Up provided citizenship
documentation for four of the five members. Failure to verify citizenship before a member’s
start date could result in ineligible members participating who are not citizens, nationals, or
lawful permanent residents.

As discussed in Schedules A and B, we questioned $3,281 of living allowance and benefits
for the two members for whom the subgrantees were unable to provide citizenship
documentation. We did not question education awards for these members, because they were
still serving and had not earned education awards.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that adequate
documentation is obtained and maintained to verify member eligibility before members begin
service. In addition, we recommend that the Corporation follow up after additional training
has been completed and monitoring procedures are in place to ensure that all Serve DC
subgrantees verify eligibility before member contracts are signed. We also recommend that
the Corporation obtain Serve DC’s verification of member eligibility before the education
awards for these two members are certified.

Serve DC’s Response: Serve DC concurred with this finding. It will conduct annual
program director training and will provide subgrantees with a Program Director Handbook
and a template of a member timesheet to ensure subgrantees are consistent in their program
management activities.

In addition, Serve DC will increase the length of its subgrantee site visits and number of
members sampled during the visits. Serve DC is also revising its site visit monitoring tool to
address issues identified in this report and will forward the completed document to the
Corporation for review and approval. Further, for programs designated as high risk, Serve
DC will require additional monitoring steps, including specialized training plans, quarterly
program benchmarks, and multiple monitoring visits.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure corrective
actions are implemented and effective.




                                              20
3.     Serve DC did not ensure that its subgrantees completed required member
       criminal background checks before members served with children.

Heads Up did not complete background checks for four PY 2004-2005 returning members
until after the members performed service with children. The completion time for
background checks ranged from 7 to 42 days. AmeriCorps Provisions, B.6.h., Criminal
Record Checks, requires that, to the extent permitted by state law, criminal record checks be
conducted on members over the age of 18 who have access to children as part of the pre-
service screening process.

Heads Up did not think that background checks were required for returning members,
because background checks were conducted on the members during the prior program year.
Heads Up initated the background check process for the four members after it determined
that PY 2003-2004 background checks had expired. Without background checks, members
with criminal records could have contact with children, resulting in potential liability for the
program’s young clients, the subgrantee, Serve DC, and the Corporation.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that background checks are
performed before members serve with children. We also recommend that the Corporation
follow up after additional training is provided, and monitoring procedures are in place, to
ensure that all Serve DC subgrantees are in compliance with background check requirements.

Serve DC’s Response: Serve DC did not concur with this finding. Serve DC agrees that
AmeriCorps provisions require a member to successfully pass a background check before
serving with children or other vulnerable populations, but notes that the provisions do not
specify that background checks are required before each service term.

It further states that the District of Columbia Public Schools require background checks
before initial contact with children but does not require background check to be updated on
an annual basis. Serve DC will work with the Corporation to ensure that its background
check policy adheres to District of Columbia regulations and AmeriCorps provisions.

Accountants’ Comments: Serve DC’s corrective actions, as described, do not address our
recommendations.

4.     ECC timesheets did not support member eligibility for some education awards,
       and, in some instances, timesheet hours were not always accurately recorded in
       WBRS.

Both subgrantees tested had weaknesses in member timekeeping procedures. We tested
timesheets for 47 members at Heads Up and 18 members at ECC. Service hours recorded in
WBRS were not supported by member timesheets for eight ECC members tested for PY
2004-2005 and nine ECC members for PY 2005-2006 (through February 2007). At the
request of the OIG, we expanded testing for six of the nine PY 2005-2006 members through




                                               21
the end of the program year. We also expanded testing by an additional nine members for
PY 2004-2005 and six for PY 2005-2006.

ECC did not provide timesheets for the nine PY 2004-2005 members and for four PY 2005-
2006 members included in the expanded testing. It provided some, but not all, of the
timesheets for four other PY 2005-2006 members. ECC stated that it used member sign-in
sheets and time cards to support PY 2005-2006 WBRS hours. Total service hours from sign-
in sheets and time cards for eight PY 2005-2006 members included in the expanded testing
were several hundred hours less than the total recorded in WBRS. In many cases, these
differences affected member eligibility to earn an education award, because the number of
timesheet-supported service hours did not meet the Corporation’s service-hour requirements.
Specifically:

       •      In PY 2004-2005, nine members did not meet minimum service hours
              required for education awards. We questioned education awards of $42,525.

       •      In PY 2005-2006, eight members did not meet minimum service hours
              required for an education award. We did not question education awards of
              $37,800, because the subgrantee had not certified in WBRS that the members
              had earned the awards.

ECC representatives stated at the exit conference that the PY 2005-2006 members did not
earn their education awards and that the members would return to perform additional service
hours.

In addition, time logs for one member in PY 2005-2006 were not completed in WBRS.
AmeriCorps Provisions, C.22.c.ii, AmeriCorps Members, requires that grantees keep time-
and-attendance records for all AmeriCorps members to document their eligibility for in-
service and post-service benefits. AmeriCorps Provisions, B.8.a, Program Requirements,
states that to be eligible for an education award the member must complete the term of
service and hours:

       •      Full-time members must serve at least 1,700 hours;
       •      Half-time members must serve at least 900 hours;
       •      Reduced half-time members must serve at least 675 hours;
       •      Quarter-time members must serve at least 450 hours; and
       •      Minimum-time members must serve at least 300 hours.

ECC did not have procedures in place to verify the accuracy of hours recorded in WBRS or
to ensure that all member time was properly reported and timesheets were maintained in
member files.

During testing, we noted some weaknesses in timekeeping procedures. A summary of
timesheet discrepancies by subgrantee follows:




                                            22
                                                                              Changes      12 or More
              Missing     Missing        Not      Prepared      Whiteout        Not       Service Hours
Subgrantee    Names      Signatures    Original   in Pencil    Corrections    Initialed      Per Day
ECC             4            17           _           6              7            8             12
Heads Up        _            11          12           1              3            6             40
Total           4            28          12           7            10            14             52


    ECC procedures require members and supervisors to sign and date service records, but do not
    address the use of pens and indelible ink. Heads Up has appropriate timekeeping procedures,
    but did not always follow them.

    AmeriCorps requirements do not specifically address timesheet procedures. It is, however,
    good business practice to maintain original documents, initial changes, make corrections
    without pencil or whiteout, sign and date documents, and check the accuracy of hours
    recorded on timesheets. Without procedures to verify member activities or timesheet
    accuracy, the potential exists that members may perform prohibited activities or may receive
    education awards to which they are not entitled. By initialing changes, accountability is
    maintained that timesheets are consistent with member and management intentions.

    Recommendation: We recommend that the Corporation require Serve DC to strengthen its
    subgrantee training and program monitoring procedures to ensure that subgrantees verify the
    accuracy and reasonableness of service hours reported in WBRS and on timesheets, maintain
    member timesheets in member files, and have policies to ensure that timesheets are properly
    completed. We also recommend that the Corporation review results of Serve DC monitoring
    visits until the Corporation is confident of the effectiveness of strengthened training and
    policies and procedures.

    We further recommend that the Corporation disallow earned and used education awards and
    recover education awards for members whose timesheets did not support their eligibility for
    an award. We also recommend that Serve DC and the Corporation evaluate the additional
    hours served by the PY 2005-2006 members, if any, to ensure the accuracy of the member
    hours and to ensure that the members are eligible to receive education awards.

    Serve DC’s Response: Serve DC concurred with this finding. It will conduct annual
    program director training and provide subgrantees with a Program Director Handbook and a
    template of a member timesheet to ensure subgrantees are consistent in their program
    management activities.

    In addition, Serve DC will increase the length of its subgrantee site visits and number of
    members sampled during the site visits. Serve DC is also revising its site visit monitoring
    tool to address issues identified in this report and will forward the completed document to the
    Corporation for review and approval. Further, Serve DC will work with Corporation staff to
    review timesheets/records for its PY 2004-2005 and PY 2005-2006 members to determine
    which members earned education awards, and to develop actions that can be implemented to
    assist members who may need to earn additional service hours.



                                                  23
Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure corrective
actions are implemented and effective. We recommend that the Corporation freeze and
recover education awards for those members without timesheets that support required service
hours.

5.     Subgrantees did not always complete member enrollment, exit, and change-of-
       status forms and enter them into WBRS in accordance with AmeriCorps
       requirements.

We tested enrollment, exit, and change-of-status forms for 65 members at Heads Up and
ECC. These subgrantees did not enter member enrollment, exit, and change-of-status forms
into WBRS within the required 30-day timeframe, as follows:

                                         Forms Entered Late
                 Subgrantee     Enrollment   Exit Change-of-Status
                 ECC                18         9            4
                 Heads Up           25        11            _
                 Total              43        20            4

In addition, ECC did not enter change-of-status forms into WBRS for two members when
member documentation indicated they had been suspended. We further identified enrollment
and exit forms that were missing, were not signed by members, were signed after the
members started service, or were signed in pencil.

                                      Not Signed      Signed After       Signed in
         Subgrantee       Missing     by Member       Service Start       Pencil
         ECC                 4             1                 9              3
         Heads Up            _             7                 1              1
         Total               4             8                10              4

AmeriCorps Provisions, B.8.c., Notice to the Corporation’s National Service Trust, requires
that grantees notify the Corporation within 30 days of a member’s enrollment, suspension,
and/or completion of service. Further, member change-of-status forms are required to be
submitted no later than 30 days after member status is changed. AmeriCorps Provisions,
C.27., Retention of Records, requires grantees to retain all program records for three years
from the date of submission of the final Financial Status Report (FSR). Without timely
completion and submission of enrollment, change-of-status, and exit forms, the Corporation
cannot maintain accurate member records.

AmeriCorps requirements do not specifically address procedures for preparing forms. It is,
however, good business practice to prepare and sign documents in ink. When member forms
are prepared with pencil, it is difficult to determine if unauthorized alterations have been
made, and an audit trail does not exist to determine if changes were authorized.




                                             24
Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that member enrollment,
exit, and change-of-status forms are properly completed.

Serve DC’s Response: Serve DC concurred with this finding. It will conduct annual
program director training and provide subgrantees with a Program Director Handbook to
ensure subgrantees are consistent in their program management activities.

In addition, Serve DC will increase the length of its subgrantee site visits and number of
members sampled during the visits. Serve DC is also revising its site visit monitoring tool to
address issues identified in this report and will forward the completed document to the
Corporation for review and approval.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure corrective
actions are implemented and effective.

6.     Some member contracts were not signed before applicants started service, were
       missing, or did not include all required elements.

AmeriCorps applicants become members only after signing a contract; therefore, service
hours recorded before signing are not eligible to count toward earning an education award.

As discussed in Schedules A and B, we identified the following instances where service
hours recorded subsequent to the contract signing date were insufficient to warrant an
education award.

                             Signed After    Signature Date        Questioned
           Subgrantee        Service Start      Changed         Education Awards
           Heads Up               39                                 $4,863
           ECC                    13                 1                4,725
           Total                  52                 1               $9,588

In addition, we note that:

       •       Heads Up and ECC were each unable to provide a contract for one member.

       •       ECC’s member contracts did not include position descriptions, (they were
               separate documents). ECC did not provide a position description for the nine
               members tested from PY 2004-2005. The position descriptions for the nine
               members tested from PY 2005-2006 were signed after the members’ start
               dates.

       •       The signature date on one ECC member’s contract was changed with white-
               out, and the change was not initialed.



                                              25
AmeriCorps Provisions, B.8.d, Member Enrollment Procedures, stipulates that AmeriCorps
programs are required to sign a member contract with an individual or otherwise enter a
legally enforceable commitment as defined by state law before enrolling a member. Further,
members are not considered enrolled in a program until a contract is signed, and therefore
service hours recorded before signing a member contract are not counted toward member
education awards.

AmeriCorps Provisions, B.7.b., Member Contracts, requires members to sign contracts that
stipulate responsibilities and rights, including position descriptions. Failure to sign member
contracts that include all necessary stipulations could result in members being unaware of
their rights and responsibilities.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that a signed and dated
contract stipulating all member responsibilities and rights is obtained before a member begins
service and the contract is retained for each member for each year of service.

Serve DC’s Response: Serve DC concurred with this finding. It will conduct annual
program director training and will provide subgrantees with a Program Director Handbook
and a template of a member contract to ensure subgrantees are consistent in their program
management activities.

In addition, Serve DC will increase the length of its subgrantee site visits and number of
members sampled during the visits. Serve DC is also revising its site visit monitoring tool to
address issues identified in this report and will forward the completed document to the
Corporation for review and approval. Further, for programs designated as high risk, Serve
DC will require additional monitoring steps, including specialized training plans, quarterly
program benchmarks, and multiple monitoring visits.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure corrective
actions are implemented and effective.

7.     Subgrantees did not always document member orientation training attendance.

ECC and Heads Up could not provide documentation to demonstrate that members received
an orientation covering the AmeriCorps program and requirements before starting service, as
follows:

       •       Three Heads Up members from PY 2004-2005 and two from PY 2005-2006
               did not attend orientation. The subgrantee waived the orientation requirement,
               because these members were second-year members and had received an
               orientation in the prior program year.

       •       ECC did not provide documentation to show that two members from PY
               2004-2005 received orientation training. The two members started the


                                              26
               program late, and their sign-in sheets did not indicate that they received
               orientation.

AmeriCorps Provisions, B.7.c., Training, states that grantees must conduct an orientation for
members and comply with any pre-service orientation or training required by the
Corporation. In addition, grantees are required to provide members with training, skills,
knowledge, and supervision necessary to perform tasks required in their assigned project
positions, including specific training in a particular field and background information on the
community served. Further, AmeriCorps Provisions, C.27., Retention of Records, requires
grantees to retain all program records for three years from the date of submission of the final
FSR.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that subgrantees retain
documentation to support member attendance at orientation.

Serve DC’s Response: Serve DC concurs with this finding. It will strengthen its monitoring
practices to ensure that subgrantees accurately document member orientation and training
attendance and will require all subgrantees to develop a policy to include copies of
orientation training schedules that are signed by all members and placed in member files.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure corrective
actions are implemented and effective.

8.     Subgrantees did not always conduct member evaluations that met AmeriCorps
       requirements and document all evaluations.

ECC and Heads Up did not provide documentation that some members received mid-term
and final evaluations, and many of the evaluations were missing either member or supervisor
signatures. Missing and unsigned evaluations were as follows:

                                   Mid-Term
                                  Evaluations              Final Evaluations
              Subgrantee       Missing  Unsigned          Missing    Unsigned
              Heads Up                      20              11          10
              ECC                18         __              12           __
              Total              18         20              23          10

All final evaluations tested at Heads Up did not indicate if the member had completed the
required number of service hours to be eligible for an education award.




                                              27
AmeriCorps Provisions, B.7.g., Performance Reviews, states that grantees must conduct and
keep a record of at least a mid- and end-of-term written evaluation of each member’s
performance for full- and half-time members and an end-of-term written evaluation for less
than half-time members to document that the member has:

       •       Completed the required number of hours;
       •       Satisfactorily completed assignments; and
       •       Met other performance criteria communicated at the beginning of the service
               term.

One Heads Up member without a PY 2004-2005 final evaluation returned in PY 2005-2006.
Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. Without evaluations, members are not eligible to
serve an additional term of service. We questioned the Federal share of the member’s PY
2005-2006 living allowance of $1,474, as explained in Schedule A, Note 5.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that subgrantees conduct
and document member evaluations that meet AmeriCorps program requirements.

Serve DC’s Response: Serve DC concurred with this finding. It will conduct annual
program director training and will provide subgrantees with a Program Director Handbook
and a template of a member evaluation tool to ensure subgrantees are consistent in their
program management activities.

In addition, Serve DC will increase the length of its subgrantee site visits and number of
members sampled during the visits. Serve DC is also revising its site visit monitoring tool to
address issues identified in this report and will forward the completed document to the
Corporation for review and approval.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. The Corporation should follow up to ensure corrective actions are
implemented and effective.

9.     Serve DC and subgrantee financial management systems did not adequately
       account for and report grant costs in accordance with Federal requirements.

Serve DC, Heads Up, and ECC were not accounting for and reporting grant costs in
accordance with Federal requirements, as follows:

       •       Serve DC submitted inaccurate financial reports for the AmeriCorps
               Competitive, AmeriCorps Formula, Learn and Serve, Administrative, and
               Disability grants. It did not reconcile expenditures reported on its FSR to
               expenditures reported in its accounting system and on subgrantee Periodic
               Expense Reports (PER). 45 CFR § 2541.200 (b) requires that recipient




                                              28
    financial management systems provide for accurate, current, and complete
    disclosure of financial results of each Federally sponsored program.

•   Serve DC used estimates or incomplete time-and-attendance reports for staff
    whose salaries were claimed as match. OMB Circular A-87, Cost Principles
    for State, Local, and Indian Tribe Governments, Attachment B, paragraph,
    8.h., Support of salaries and wages, requires salary distributions based on
    personnel activity reports for employees working on multiple activities.
    These must be signed by each employee and account for all time worked.
    Further, budget estimates or other distribution percentages determined before
    services are performed do not qualify as support for charges to Federal
    awards.

•   ECC claimed labor costs based on budget estimates and did not use timesheets
    or periodic certifications to support claimed labor costs. OMB A-122, Cost
    Principles for Non-Profit Organizations, Attachment B, paragraph 8.m.,
    Support of salaries and wages, states that the distribution of salaries and
    wages to awards must be supported by personnel activity reports that reflect
    an after-the-fact determination of actual activity of each employee. In
    addition, budget estimates or estimates determined before services are
    performed do not qualify as support for charges to awards.

•   ECC’s accounting system did not reconcile to costs claimed on its FSRs and
    PERs. In PY 2004-2005, the accounting detail reports for Federal costs
    supported more expenditures than claimed on the FSR, and accounting detail
    reports for match costs supported fewer expenditures than claimed on the
    FSR. In PY 2005-2006, the accounting detail reports for Federal and match
    costs supported more expenditures than claimed on the FSR. In addition,
    some expenses were recorded as 100 percent Federal or 100 percent match in
    the accounting system, but allocated between Federal and match on the PER.
    Further, allocation percentages for Federal and match costs in the accounting
    system and on the PER differed. 45 CFR § 2543.21(b) requires that recipient
    financial management systems provide for accurate, current, and complete
    disclosure of financial results of each Federally sponsored program.

•   Heads Up claimed salary and benefit costs that either were claimed as both
    Federal costs and match costs or were claimed multiple times as match costs.
    Heads Up claimed 49 duplicate salary and benefit transactions totaling
    $58,560. 45 CFR § 2543.21(b) requires that recipient financial management
    systems provide for accurate, current, and complete disclosure of financial
    results of each Federally sponsored program.

•   Serve DC did not submit FSRs in a timely manner in accordance with grant
    requirements, as follows:




                                  29
                                           FSRs Submitted Late
                        Grant No.          Number   Days Late
                        04CAHDC001            1           95
                        04PTHDC001            1           95
                        04CDHDC001            1           95
                        03KCHDC001            1          136
                        03ACHDC001            2         4-13
                        04AFHDC001            2        13-45

              The AmeriCorps Provisions for the Learn and Serve, Program Development
              and Training, Disability Placement, and State Administrative Awards require
              grantees to submit semi-annual cumulative financial status reports
              summarizing expenditures during the reporting period by January 31 and July
              31 of each year. In addition, AmeriCorps Provisions B.16.a., Financial Status
              and Progress Reports Reporting, states that grantees are responsible for
              setting subgrantee reporting requirements, and that subgrantees must adhere to
              reporting requirements outlined and communicated by the grantee.

              Untimely submission of FSRs by subgrantees can adversely impact Serve
              DC’s ability to submit complete and accurate reports to the Corporation.

       •      Heads Up and ECC did not submit FSRs and progress reports in accordance
              with subgrant requirements. AmeriCorps Provisions B.16.a., Financial Status
              and Progress Reports Reporting, states that grantees are responsible for setting
              subgrantee reporting requirements, and that subgrantees must adhere to
              reporting requirements outlined and communicated by the grantee for the
              program year. Serve DC required semiannual FSRs and progress reports to be
              submitted in WBRS. ECC did not submit one FSR in PY 2004-2005 and
              submitted no progress reports in PY 2005-2006.

              In addition, we identified reports submitted after the subgrant due dates as
              follows:

                                    FSRs                 Progress Reports
              Subgrantee     Number   Days Late         Number Days Late
              ECC              1         8                2      88 and 269
              Heads Up                                    3       6, 29, 92

The failure to submit subgrantee FSRs and progress reports on time can adversely affect
Serve DC’s ability to submit complete and accurate reports to the Corporation.

Recommendation: We recommend that the Corporation require Serve DC to provide training
to ensure that subgrantees are aware of the need to:

       •      Identify and segregate Federal and match costs in their accounting records;


                                             30
       •      Maintain accurate accounting records;
       •      Report grant progress in a timely manner.

Serve DC’s Response: Serve DC concurs with this finding. It has taken several steps to
ensure that subgrantees have sound financial management systems and procedures. These
steps include distributing a Program Director Handbook, requiring high-risk programs to
submit receipts with monthly reimbursement submissions, conducting financial management
training during annual program director training, and providing financial management
training through approved Corporation providers.

In addition, Serve DC has developed a checklist for submitting FSRs and now reconciles all
subgrantee FSRs against Serve DC’s expenditure tracking worksheets and the District of
Columbia’s System of Accounting and Reporting. Further, Serve DC has developed
corrective action measures for subgrantees that do not submit timely progress or Financial
Status Reports.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure that the
corrective actions are implemented and effective.

10.    Serve DC and Heads Up did not ensure the allowability of claimed match costs.

We identified the following unallowable match costs:

       •      Heads Up claimed as match costs $93,687 of labor and benefits for the portion
              of staff time spent performing fundraising activities. OMB Circular A-122,
              Cost Principles for Non-Profit Organizations, Attachment B, paragraph 17,
              Fundraising and investment management costs, states that the costs of
              organized fundraising, including financial campaigns, endowment drives,
              solicitation of gifts and bequests, and similar expenses incurred solely to raise
              capital or obtain contributions are unallowable.

       •      Heads Up claimed as match $79,564 of salary and benefit expenses for the
              portion of staff time spent on administration of the organization. Heads Up
              defined administrative activities as those considered allocable and shared by
              all functions and necessary to support programmatic functions of the agency.

              Administrative activities performed by Heads Up personnel are included in
              the 5 percent allowable amount for administrative costs. In lieu of an indirect
              cost agreement, grantees may charge a fixed 5 percent of Federal funds
              expended for administrative costs. Serve DC passed on the fixed 5 percent to
              Heads Up. 45 CFR § 2510.20 defines administrative costs as general or
              centralized expenses of overall administration of an organization. Heads Up
              was unaware that administrative costs were included in the 5 percent cost
              allocation.




                                             31
•   Heads Up claimed as match costs $37,491 of salaries and benefits for staff
    time spent on activities that were not allocable to the AmeriCorps program.
    The staff also spent time on program development and other program
    activities.

    Heads Up described program development activities as strategic planning,
    goal setting, monitoring of social issues and trends affecting program
    recipients, presenting reports to the Board of Directors, and meeting with
    college partners and educators. Heads Up described other program activities
    as attending meetings with community organizations that develop policy
    regarding children and youth, and with other providers of youth services.
    45 CFR § 2510.20, Definitions, defines program costs as expenses directly
    related to a program or project, including their operations and objectives.
    Further, program costs include costs for staff that recruit, train place, support,
    coordinate, or supervise participants and costs for staff who work in a direct
    program or project support, operational, or oversight capacity.

•   In PY 2004-2005 and PY 2005-2006, Heads Up claimed as match $114,296 of
    program expenses paid with funds from a grant with the District of Columbia
    Children Youth Investment Trust Corporation (CYITC). The grant agreement
    stated that the funds were a blend of Federal government funds and District of
    Columbia funds and must be expended in accordance with OMB Circular
    A-110. OMB Circular A-110, Uniform Administrative Requirements for
    Grants and Agreements With Institutions of Higher Education, Hospitals, and
    Other Non-Profit Organizations, Subpart C.23, Cost Share or Matching,
    states that all contributions must be accepted as part of the recipient's cost
    sharing or matching if such contributions are not paid by the Federal
    Government under another award, except where authorized by Federal statute
    to be used for cost sharing or matching.

•   Serve DC used estimates as a basis for claiming match costs on the
    Administrative grant. Serve DC claimed as match $562 of unallowable
    consulting services expenses. It erroneously claimed the budgeted $2,300
    instead of the actual $1,738. In addition, Serve DC claimed $7,500 of
    estimated financial service expenses. It did not monitor the expenditure of
    funds and was unaware that the funds were not spent on financial service
    expenses.

•   Heads Up claimed $1,750 for fundraising books as match costs in PY 2004-
    2005. In addition, it claimed as match $258 of postage and delivery expenses
    for mailing donor solicitation letters. OMB A-122, Cost Principles for Non-
    Profit Organizations, Attachment B, paragraph 17, Fund raising and
    investment management costs, states that costs of organized fundraising,
    including financial campaigns, endowment drives, solicitation of gifts and
    bequests, and similar expenses incurred solely to raise capital or obtain
    contributions, are unallowable. Heads Up did not have adequate procedures
    to ensure that claimed costs were allowable.

                                    32
       •       Heads Up claimed $4,422 of interest costs on a capital loan as match in PY
               2004-2005. OMB Circular A-122, Cost Principles for Non-Profit
               Organizations, Attachment B, paragraph 23, Interest Costs, states that costs
               incurred for interest on borrowed capital are unallowable. Heads Up did not
               know that these costs were unallowable.

Exceptions identified above resulted in overstated match costs claimed on Serve DC’s FSR.
Serve DC, however, had substantial overages in match requirements, and these offset the
exceptions identified above. It appears that the match overages will enable Serve DC to meet
its match requirement. As a result, we did not question overstated match costs here.

Recommendation: We recommend that the Corporation instruct Serve DC to review the
applicable regulations and develop polices and procedures to ensure claimed match costs are
allowable, adequately documented, and allocable in accordance with applicable cost
principles and regulations. We also recommend that the Corporation instruct Serve DC to
implement procedures requiring appropriate personnel to review the FSRs before they are
submitted to the Corporation. The reviews should include tracing reported amounts on the
FSRs to supporting documentation and verifying the accuracy of the data through
appropriately designed analyses. We further recommend that the Corporation instruct Serve
DC to adjust subsequent FSRs to reflect actual match costs that are verifiable, accurate, and
in accordance with costs principles. Finally, we recommend the Corporation review claimed
match costs for allowability prior to closing the grant.

Serve DC’s Response: Serve DC concurs in part with this finding. It will continue to
actively monitor subgrantee financial systems and practices to ensure strict compliance with
regulations and reporting requirements.

Serve DC has taken several steps to ensure that subgrantees have sound financial
management systems and procedures. These steps include distributing a Program Director
Handbook, requiring high-risk programs to submit receipts with monthly reimbursement
submissions, conducting financial management training during annual program director
training, and providing financial management training through approved Corporation
providers. Serve DC will also produce a summary of matching requirements and allowable
match sources for subgrantees to ensure that all subgrantees are clear on what is permissible
under Federal regulations and Corporation provisions.

Serve DC did not concur that $114,296 of match funds provided to Heads Up through a grant
with CYITC, and $37,491 of staff time spent on program development and other program
activities, are unallowable costs.

       •       CYITC Match Costs. Heads Up has written confirmation from CYITC that
               funds it received as non-Federal dollars were $44,000 in PY 2004-2005 and
               $190,150 in PY 2005-2006. Serve DC believes that segregation of dollar
               amounts derived from non-Federal sources is an adequate assurance that no
               Federal costs were reported as matching costs. During the testing period the


                                              33
               auditing firm was unable to adequately address what would provide
               assurances that Federal funds were not used as match.

       •       Program Development and Other Program Costs. Serve DC believes that
               these costs relate directly to operations of a successful AmeriCorps program.

Heads Up has identified more matching funds than are statutorily required. Thus, Serve DC
is prepared to modify the final AmeriCorps Competitive grant FSR and decrease reported
match expenditures for unallowable costs.

Accountants’ Comments: Serve DC’s corrective actions for unallowable fundraising,
administration, consultant services, and general liability insurance costs, as described, are
responsive to our recommendations. Serve DC’s corrective actions for the CYITC match
costs and program development and other program costs do not address our
recommendations.

       •       CYITC Match Costs. It is the responsibility of the auditee to provide
               assurances that Federal funds were not used as match. Heads Up provided a
               spreadsheet showing the amount of CYITC funds from non-Federal sources.
               Heads Up did not, however, provide documentation to demonstrate that
               expenses claimed as match were not paid with the non-Federal dollars. We
               recommend that Serve DC provide the Corporation with this documentation.

       •       CYITC Match Costs. We also recommend that the Corporation determine if
               program development and other program costs claimed as match are
               allowable.

We recommend that the Corporation include the $58,560 of unallowable salary and benefit
transactions identified in No. 9 above when adjusting the final AmeriCorps Competitive
FSR. We also recommend that the Corporation determine if Serve DC met its match
requirement after adjusting the final AmeriCorps Competitive FSR.

11.    Serve DC did not ensure that subgrantees complied with AmeriCorps
       requirements.

Serve DC did not ensure that subgrantees always complied with the following AmeriCorps
provisions:

       •       ECC paid living allowances of $9,700 or $9,800, which is less than the
               required $10,197 minimum for PY 2004-2005. In addition, based on the
               distribution method described in the PY 2005-2006 member contracts, it
               appears that PY 2005-2006 members would be paid a living allowance of less
               than the $10,600 minimum requirement.

               45 CFR § 2522.240 What financial benefits do AmeriCorps participants
               serving in approved AmeriCorps positions receive?, states that any individual
               who participates in an AmeriCorps program on a full-time basis will receive a

                                               34
              living allowance equal to or greater than the average annual subsistence
              allowance provided to Volunteers in Service to America (VISTA) members
              under Section 105 of the Domestic Volunteer Service Act of 1973. The
              minimum living allowances for PYs 2004-2005 and 2005-2006 were $10,197
              and $10,600, respectively.

              A living allowance of $9,800 was in the original budget for PY 2004-2005,
              but the amount was increased to $10,094, when the budget was approved.
              ECC, however, used the amount in the original budget to distribute living
              allowances. Its representatives could not explain why the budgeted living
              allowance was approved for an amount less than the minimum required. ECC
              believed that most of the PY 2004-2005 members received a living allowance
              of $9,700, instead of the $9,800 in the original budget, due to a miscalculation
              by ECC’s accountant.

       •      Heads Up distributed living allowances to members during summer, fall, and
              spring semesters, but did not distribute living allowances during the one-
              month breaks between semesters. In addition, the amount of living
              allowances varied by semester.

              In PYs 2004-2005 and 2005-2006, members received living allowances of
              $2,500 in the summer, $800 in the fall semester, and $1,200 in the spring
              semester. The subgrantee informed us that it increased the summer
              allowances to compensate members for increased expenses while school was
              not in session. It also, however, increased spring payments to provide
              members with an incentive to stay with the program throughout the school
              year.

              AmeriCorps Special Provisions B.I.1, Living Allowance Distribution, states
              that programs should pay the living allowance in regular increments, such as
              weekly or bi-weekly, paying an increased increment only for increased living
              expenses, such as food, housing, or transportation.

       •      ECC did not enter one PY 2005-2006 member into WBRS. AmeriCorps
              Provisions, B.8.d, Member Enrollment Procedures, states that an individual is
              enrolled as an AmeriCorps member when the program has verified the
              member’s eligibility to serve, signed a member contract, approved the
              enrollment form in WBRS, and the member has begun his or her term of
              service. The member file contained a copy of the member’s birth certificate, a
              signed member contract, and a signed enrollment form. In addition, the
              member received six living allowance payments. ECC would have exceeded
              its member slot limit if this member had been entered into WBRS.

Recommendation: We recommend that the Corporation determine if retroactive payments
should be made to members and ensure that subgrantees use application guidelines when
determining living allowances for members. We further recommend that the Corporation


                                             35
require Serve DC to strengthen its subgrantee training and program monitoring procedures to
ensure that subgrantees comply with AmeriCorps requirements.

Serve DC’s Response: Serve DC concurred in part with this finding. It now requires
subgrantees to submit living allowance payment schedules annually to Serve DC. Serve DC
will use the payment schedules to verify living allowance expenditures listed in monthly
reimbursement requests. Serve DC will conduct annual program director training and will
provide subgrantees with a Program Director Handbook to ensure subgrantees are consistent
in their program management activities.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendations. We recommend that the Corporation follow up to ensure the corrections
are implemented and effective.

12.    Serve DC did not adequately document reviews of subgrantee OMB Circular A-
       133 audit reports.

We reviewed the monitoring files for all four Serve DC subgrantees. Serve DC did not
document whether subgrantees submitted OMB Circular A-133 audit reports and
management letters as required. Three of the four Serve DC subgrantees had Single Audits
during the review period, but Serve DC was only able to provide one Single Audit report for
one subgrantee. In addition, it did not document results of its reviews of subgrantees’ audit
reports and management letters and did not perform reconciliations of subgrantee payments
to report expenditures.

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D.400 (d), Pass-through Entity Responsibilities, requires grantees to ensure that
subrecipients undergo audits meeting requirements of the circular. According to 45 CFR §
2541.260(b)(4), recipients must consider whether subrecipient audits necessitate adjustment
of the grantee’s own records. Serve DC was unaware that its AmeriCorps Program Director
Handbook contained forms for documenting reviews of subgrantees audit reports, tracking
whether subgrantees submitted audit reports, and for following up with subgrantees on issues
identified in audit reports.

Recommendation: We recommend that the Corporation require Serve DC to strengthen its
subgrantee training and program monitoring procedures to ensure that all OMB Circular A-
133 reports and management letters are obtained and maintained, necessary reconciliations
are performed, and results of these procedures are documented.

Serve DC’s Response: Serve DC concurs with this finding. It revised its subgrantee audit
review procedures to include a written statement for the grant file, noting any issues
identified and applicable subgrantee responses.

Accountants’ Comments: Serve DC’s corrective actions, as described, are responsive to our
recommendation. Serve DC did not, however, address obtaining and reviewing subgrantee
management letters and performing necessary reconciliations. We recommend that the
Corporation follow up to ensure corrective actions are implemented and effective.

                                              36
                     APPENDIX A

SERVE DC’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
                            GOVERNMENT OF THE DISTRICT OF COLUMBIA
                                        EXECUTIVE OFFICE OF THE MAYOR




Serve DC




     November 1,2007


     Ms. Carol Bates
     Assistant Inspector General for Audit
     Corporation for National and Community Service
     1201 New York Avenue NW
     Washington DC 20525

     Dear Ms. Bates:

     Thank you for this opportunity to comment on the draft report of the Ofice of the Inspector
     General's Agreed-Upon Procedures for Corporation for National and Community Service
     Grants Awarded to Serve DC.

     Serve DC is proud to administer AmeriCorps, Learn and Serve America, and other grant funding
     provided by the Corporation for National and Community Service. Since the creation of the
     District of Columbia Commission on National and Community Service, we have strived to
     expand our capacity to manage a diverse portfolio consisting of organizations that serve and help
     the residents of the District of Columbia.

     Attached is the detailed response from Serve DC on the findings and questioned costs identified
     in the report.

     Recognizing that continued improvement will only help to strengthen our programming and
     benefit the District's residents, Serve DC is committed to using this report as the basis for
     identifying areas in which we need to improve performance to comply with Corporation
     guidelines and regulations.

     Sincerely,



     ~ i l bD.~,Williams
                  t
     Executwe Director



   441 4th Street, N.W.   Suite 1140 North   Wahngton, D.C. 20001   ph: (202)727-7925   fax: (202)727-9198
 Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                       National and Community Service GrantsAwarded to Serve DC



                Schedule A: Claimed and Ouestioned Costs- Heads Uv
Responses for Notes 1- 9 are included in the Exhibit B: Compliance Results response for Finding
1.

In Note 10, the auditors questioned education awards totaling $4,863 due to members beginning
to serve before the signing of member contracts. Serve DC concurs in part for this finding. For
Member 3, with a $2,363 questioned education award, Heads Up provided a copy of the signed
member contract to the auditors at the exit conference on June 7, 2007. For Member 1 and
Member 2, each with a $1,250 questioned education awasd, Serve DC concurs that the members
began to serve before signing a member contract.


     Schedule B: Claimed and Ouestioned Costs- Earth Conservation Coms
Responses for Notes 1- 9 are included in the Exhibit B: Compliance Results response for Finding
1.

In Note 10, the auditors questioned education awards totalii $42,525 due to WBRS hours
discrepancies. Currently all time sheets/records for Earth Conservation Corps members fiom
Program Years 2004-2005 and 2005-2006 are being reviewed by the Corporation's AmeriCorps
Program Officer and Grants Officer for Serve DC. Serve DC will be actively working with
Corporation staff to verify member hours to determine which members earned education awards
and to develop actions that can be implemented to assist members who may need to earn
additional hours.

In Note 11, the auditors questioned education awards totaling $4,725 due to a member beginning
to serve before the signing of the member contract. Serve DC concurs with this finding.


                                Exhibit B: Comvliance Results
find in^ 1: Serve DC and its subwantees claimed unallowable and unsmorted costs totaling
3 70.688:

       a Heads Up- Member living allowances for third-term members- $5,381 (From
         Schedule A, Note 1):
               Serve DC concurs with this finding.

       b. Heads Up- Unallowable labor costs: fundmising- $1,925 (From Schedule A, Note 2):
                Serve DC concurs with this finding.

       c. Heads Up- Living allowance for prior-year members and hourly living allowance-
          $1,510 (From Schedule A, Note 3):


                                                                                                Page 1 of l l
Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                      National and Community Service Grants Awarded to Serve DC


              = Serve DC concurs with this finding.

      d. Heads Up- Duplicate benefit costs- $1,497 (From Schedule A, Note 4):
            = Serve DC does not concur with this finding. Heads Up initially submitted an
               accounting report that contained an error. Heads Up resubmitted to the
               auditing firm on April 27,2007 fmancial reports that corrected this error and
               did not include the questioned duplicate benefit transaction.

      e. Heads Up- End-of-term evaluation not performed- $1,474 (Prom Schetlule A, Note
         5):
               Serve DC wncurs with this finding.

      f: Heads Up- Unallowable liability insurance- $1,204 (From Schedule A, Note 6):
            = Serve DC concurs with this finding.

      g. Heads Up- Unallocable labor costs: program development and other program- $1,147
         (From Schedule A, Note 7):
               Serve DC does not concur with this finding. In order to maintain a high
               quality AmeriCorps program that focuses on tutoring of disadvantaged youth,
               it is critical that functions such as program development, strategic planning,
               and District wide education policy development occur.                 Program
               development involves the creation, review and auditing of Heads Up's current
               programs. Ongoing program development is vital to ensure quality
               programming that is relevant to the communities Heads Up serves, informed
               by scientific principles applied to education and successfully achieves
               program goals. This process requires a sweeping knowledge of (in Heads Up's
               case) educational trends, volunteerism and the status of out of school time
               programs nationally and locally.

                  The Other Program activities stated in the report refer to both the development
                  of education policy and strategic planning. In order to sustain the partnership
                  with the District of Columbia Public School system - or the charter school
                  community, Heads Up must understand the civic leadership" policy and
                  approach to working with community-based organizations. This partnership
                  is vital to ensuring access to students and in measuring the success of the
                  program. In addition to education policy development and monitoring, Heads
                  Up must have a strategy, goals and accountability measures in place to
                  implement policy directives.

                  Serve DC believes these expenses are appropriate program costs that relate
                  directly to the operations of a successful AmeriCorps program.

     h. Heads Up- Inadequate citizenship documentation- $1,026 (From Schedule A, Note 8):
              Serve DC concurs with this finding.
Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Procedura for Corporationfor
                      National and Communiw Service Grants Awarded to Serve DC



      i. Heads Up- Unallocable labor costs: administration- $628 (From Schedule A, Note 9):
               Serve DC concurs with this finding.

     j.    Earth Conservation Corps- Funds budgeted for member support costs used for other
           costs- $25,340 (From Schedule B, Note 1):
                   Serve DC concurs with this finding.

      k. Earth Conservqtion Corps- Labor cost claimed at budgeted percentages- $20,419
         (From Schedule B, Note 2):
                Serve DC concurs that Earth Conservation Corps claimed labor costs at
               budgeted percentages. However, for Program Year 2004-2005, $1 1,807 in
                salary and benefit charges were questioned. Serve DC believes that these
                charges are already captured in the questioned costs for the finding &om
                Schedule B, Note 1. The Note 1 finding was comprised of salary and benefit
                expenditures. For Program Year 2005-2006, $8,612 in salary and benefit
                charges were questioned for three positions. Due to budget constraints in
                Section I, there were additional funds attributable to these three positions that
               were not charged to the AmeriCorps grant. Serve DC can therefore identify
               additional salary expenditures to offset this questioned cost.

      1.   Earth Conservation Corps- Unallowable accounting service costs- $2,800 (From
           Schedule B, Note 3):
                 Serve DC does not concur with this finding. The charges for accounting
                 senices were included in the Earth Conservation Corps 5% Corporation Fixed
                 Amount line item and represent the only charges the program made to this line
                 item.

      m. Earth Conservation Corps- Insufficient citizenship documentation- $2,255 (From
         Schedule B, Note 4):
               Serve DC does not concur with this finding. Earth Conservation Corps has
               provided Serve DC the required citizenship documentation that fulfills the
               AmeriCorps eligibility requirements, which Serve DC will forward to the
               Corporation.

      n. Earth Conservation Corps- Living allowance paid to members who left program
         without completing all requirements- $2,016 (From Schedule B, Note 5):
                Serve DC concurs with this finding.

      o. Earth Conservation Corps- Living allowance claimed for non-ArneriCorps members-
         $1,068 (From Schedule B, Note 6):
                Serve DC concurs with this finding.

      p. Earth Conservation Corps- Living allowance claimed for suspension period- $801
         (From Schedule B, Note 7):
                Serve DC concurs with this finding.


                                                                                               Page 3 of 11
  Serve DC Response to the DraR Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                        National m d Community Smice Grants Awarded to Serve DC




        q. Earth Conservation Corps- Unsupported costs- $104 (From Schedule B, Note 8):
                  Serve DC concurs with this finding.

        r. Earth Conservation Corps- Consultant expenses in excess of limit- $73 (From
           Schedule B, Note 9):
                 Serve DC does not concur with this finding. Earth Conservation Corps paid
                 $1,750 to a training company to provide three days of training. There were
                 two trainers providing the training. Two trainers each providing three days of
                 training equals a daily rate of $292, well below the maximum $540 permitted
                 per AmeriCorps provisions.

Serve DC r e c o w s the critical importance of ensuring that our subgrantees have sound
financial management policies and procedures. Serve DC has taken several steps to ensure this
including 1) distributing an AmeriCorps*State Program Director Handbook, which has an in-
depth fmancial requirements section; 2) requiring high risk programs to submit receipts with
monthly reimbursement submissions; 3) conducting a financial management section at the
annual AmeriCorps*State Program Director Institute; 4) providing financial management
technical and training assistance opportunities, through approved Corporation providers.


Findinp 2: Subprantees did not verifi elipibilitv for all members before thev bepan service.

Serve DC concurs with this finding. Serve DC provides extensive subgrantee training and
performs program monitoring procedures to ensure that adequate documentation is obtained and
maintained to verify member eligibility before members begin service. Serve DC will utilize
this finding to continue strengthening its subgrantee training in documenting member eligibility,
to ensure that appropriate staff members attend trainings, and to ensure that its monitoring
procedures verify subgrantee compliance.

Serve DC has taken several steps to strengthen the monitoring of subgrantees. In August 2007,
Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute. During this
session, Serve DC provided the 2007-2008 Serve DC AmeriCorps*State Program Director
Handbook which outlines policies and procedures relative to member, program and financial
management as well as standardized tools to address member enrollment/exiting, budget
modification, and grantee audit analysis. Moving forward, Serve DC will continue to conduct an
annual Institute to ensure grantee sites are consistent in their program management activities.

Serve DC has also expanded the scope of its annual grantee monitoring visit. Changes include
increasing the number of sampled member files requested (from 10% of members to 20% of
members) and conducting the monitoring visit over multiple days. The monitoring tool is also
being revised to ensure it satisfactorily addresses applicable issues raised in this report and Serve
DC will forward the tool to the Corporation for its review and approval.
  Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                        National and Communi@Service Grants Awarded to Serve DC



For programs designated as high risk, Serve DC will be requiring additional monitoring steps to
include specialized training plans, quarterly program benchmarks, monthly submission of
receipts with reimbursement submissions and multiple monitoring visits per year.


Finding 3: Serve DC did not ensure that its subgrantees comleted reuuired member criminal
backpround checks before members served with children

Serve DC does not concur with this finding.

AmeriCorps provisions on criminal background checks require a member to successfully pass a
background check before working with children or other vulnerable populations. The members
in question were second term members at Heads Up who had successfully completed
background checks prior to the start of their fmt term of service. Amencorps provisions do
not specify that background checks are required before each term of service. In addition,
through discussions with the Chancellor's Office at the District of Columbia Public Schools,
Serve DC has verified that the DC Public Schools requires background checks before initial
contact with children but does not require the background check to be updated on an annual
basis.

Serve DC recognizes the importance of ensuring that its background check policy adheres to
District of Columbia regulations and AmeriCorps provisions, including the revised background
check provisions that are currently being implemented, and will work with the Corporation to
ensure that this occurs.


Finding 4: ECC timesheets did not support member eligibilitv for some education awarrLF and,
in some instances. timesheet hours were not alwavs accuratelv recorded in WBRS. Both
submantees tested had weaknesses in member timekerning procedures.

Serve DC concurs with this finding.

Serve DC has taken several steps to strengthen the monitoring of sub- grantees. In August 2007,
Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute. During this
session, Serve DC provided the 2007-2008 Serve DC-Ameri~orps*~tate              Program Director
Handbook which outlines policies and procedures relative to member, program and financial
management as well as standardized tools to address member enrollmentJexiting, budget
modification, and grantee audit analysis. Moving forward, Serve DC will continue to conduct an
annual Institute to ensure grantee sites are consistent in their program management activities.

Serve DC has also expanded the swpe of its annual grantee monitoring visit. Changes include
increasing the number of sampled files requested @om 10% of members to 20% of members)
and conducting the monitoring visit over multiple days. The monitoring tool is also being
revised to ensure it satisfactorily addresses applicable issues raised in this report and Serve DC
will forward the tool to the Corporation for its review and approval. Serve DC's standard
  Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                        National and Communiw Service Grants Awarded to Serve DC



practice has been to forward all grantee monitoring reports to the AmeriCorps Program Officer at
the Corporation and Serve DC will continue to forward these reports.

To rectify confusions surrounding use of timesheets, Serve DC has developed and distributed a
standard member timesheet template that will be used by all programs.

The audit questions $42,525 in education awards for Earth Conservation Corps members &om
program year 2004-2005. Currently all time sheetslrecords for Earth Conservation Corps
members fiom Program Years 2004-2005 and 2005-2006 are being reviewed by the
Corporation's AmeriCorps Program Officer and Grants Officer for Serve DC. Serve DC will be
actively working with Corporation staff to verify member hours to determine which members
earned education awards and develop actions that can be implemented to assist members who
may need to earn additional hours.


Finding 5: Subgrantees did not always comdete member enrollment. exit, and change-of-
status forms and enter them into WBRS in accordance with AmeriCows reauirements.

Serve DC concurs with this finding. Subgrantees have received detailed and specific instruction
and guidance on the importance of accurate recordkeeping of member enrollment, exit, and
change of status forms.

Serve DC has initiated several changes in the manner in which it tracks and monitors subgrantees
member information in WBRS. For member enrollment and exit compliance, Serve DC will
regularly review WBRS data to ensure programs are in compliance with this requirement. Serve
DC will also be updating its policies to require programs to notify Serve DC in writing when
there is a change of status of a member; Serve DC will use this notification to ensure that the
applicable changes are made in WBRS.

Serve DC has taken several steps to strengthen the monitoring of subgrantees. In August 2007,
Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute. During this
session, Serve DC provided the 2007-2008 Serve DC AmeriCorps*State Program Director
Handbook which outlines policies and procedures relative to member, program and financial
management as well as standardized tools to address member enrollmentlexiting, budget
modification, and grantee audit analysis. Moving forward, Serve DC will continue to conduct an
annual Institute to ensure grantee sites are consistent in their program management activities.

Serve DC has also expanded the scope of its annual grantee monitoring visit. Changes include
increasing the number of sampled files requested (from 10% of members to 20% of members)
and conducting the monitoring visit over multiple days. The monitoring tool is being revised to
ensure it satisfactorily addresses applicable issues raised in this report and Serve DC will forward
the tool to the Corporation for its review and approval.




                                                                                                 Page 6 of 11
  Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporafionfor
                        National and Community Service Grantr Awarded to Serve DC



Finding 6: Some member contra& were not signed before auulicants started service. were
mksinp. or did not include all reauired elements.

Serve DC concurs with this finding.

Serve DC has taken several steps to strengthen the monitoring of subgrantees. In August 2007,
Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute. During this
session, Serve DC provided the 2007-2008 Serve DC AmeriCorps*State Program Director
Handbook which outlines policies and procedures relative to member, program and financial
management as well as standardized tools to address member emollment/exiting, budget
modification, and grantee audit analysis. Moving forward, Serve DC will continue to conduct an
annual Institute to ensure grantee sites are consistent in their program management activities.

Serve DC has provided a template of a member contract that includes all required elements to all
programs for their use.

Serve DC has also expanded the scope of its annual grantee monitoring visit. Changes include
increasing the number of sampled files requested @om 10% of members to 20% of members)
and conducting the monitoring visit over multiple days. The monitoring tool is also being
revised to ensure it satisfactorily addresses applicable issues raised in this report and Serve DC
will f o m d the tool to the Corporation for its review and approval.

Finding 7: Submantees did not alwavs doeument member orientation training attendance.

Serve DC concurs with this finding.

For both Heads Up and Earth Conservation Corps, several members were not able to attend the
initial member orientation. The members therefore received small "    eroua or individualized
orientation sessions.    Serve DC will strengthen its monitoring practices to ensure that
subgrantees accurately document member orientation and training attendance and will require all
subbantees to develop a policy in which copies of orientation &ring schedule are signed by
members and placed in member files.


Finding 8: Subgrantees did not alwavs conduct member evaluations that met AmeriCorus
reauirements and document all evaluations.

Serve DC concurs with this finding.

Serve DC has already taken several steps to strengthen the monitoring of subgrantees. In
August 2007, Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute.
During this session, Serve DC provided the 2007-2008 Serve DC AmeriCorps*State Program
Director Handbook which outlines policies and procedures relative to member, program and
financial management as well as standardized tools to address member enrollment/exiting,


                                                                                                 Page 7 of 11
 Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                       National and Community Service Grants Awardedto Serve DC



budget modification, and grantee audit analysis. Moving forward, Serve DC will continue to
conduct an annual Institute to ensure grantee sites are consistent in their program management
activities.

Serve DC has also expanded the scope of its annual grantee monitoring visit. Changes include
increasing the number of sampled files requested (from 10% of members to 20% of members)
and conducting the monitoring visit over multiple days. The monitoring tool is also being
revised to ensure it satisfactorily addresses applicable issues raised in this report and Serve DC
will forward the tool to the Corporation for its review and approval.

In addition, Serve DC has provided all programs with a standard member evaluation tool
template.


Finding 9: Serve DC and subgrantee financial management svstems did not adeuuatelr
account for and reuort grant costs in accordance with federal reauirements.

Serve DC concurs with this finding.

Serve DC recognizes the critical importance of strengthening its financial management systems
and practices. As such, the following policies have been implemented:
               a. All subgrantee Financial Status Reports are reconciled against Serve DC
                  expenditure tracking worksheets and the District of Columbia Government's
                  System of Accounting and Reporting (SOAR), which is the system of record
                  for all of Serve DC's expenditures. Any discrepancies on subgrantee
                  Financial Status Reports will be immediately resolved so that the reports agree
                  with the subgrantees' expenditure reimbursement requests.
               b. A checklist has been developed that must be completed before a Financial
                  Status Report can be submitted. The checklist ensures that records kom
                  SOAR are printed, any costs that have yet to appear in SOAR are clearly
                  identified and documented, and that there is a clear crosswdk between SOAR
                  expenditures and Financial Status Report expenditures. As a final step in the
                  checklist, the Serve DC Executive Director will review and approve before the
                  Financial Status Report is submitted to the Corporation.
               c. All Serve DC staff complete time and effort reports on a monthly basis. For
                  Serve DC staff whose salaries are claimed as match, Serve DC requires
                  employees to report against specific grants and phases and has developed
                  codes for each unique grant and phase to facilitate this process. Serve DC
                  does not use any estimates to identify matching salary funds.
               d. Serve DC recognizes the critical importance of submitting timely Financial
                  Status Reports to the Corporation and receiving timely Financial Status
                  Reports from its subgrantees. The Deputy Director for Grants and Operations
                  is tasked with ensuring all Financial Status Reports are submitted to the
                  Corporation and the AmeriCorps Program Manager is tasked with ensuring
                  subgrantees submit the Financial Status Reports and Progress Reports to Serve
 Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Procedura for Corporationfof
                       National and Community Service GrantsAwarded to Serve DC



                   DC. For subgrantees that do not submit timely progress or financial status
                   reports, Serve DC will be instituting corrective action measures including the
                   holding of reimbursement funds until the outstanding reports are received.

Serve DC recognizes the critical importance of ensuring that its subgrantees have sound fmancial
management systems and procedures. Serve DC has taken several steps to ensure this including
1) distributing an AmeriCorps*State Program Director Handbook, which has an in-depth
financial requirements section; 2) requiring high risk programs to submit receipts with monthly
reimbursement submissions; 3) conducting a financial management section at the annual
AmeriCorps*State Program Director Institute; 4) providing financial management technical and
training assistance opportunities, tbrough approved Corporation providers. Serve DC will
continue to actively monitor subgrantees financial systems and practices to ensure strict
compliance with regulations and reporting requirements.


Findinp 10: Serve DC and Heads Uu did not ensure the allowabicih, of claimed match costs.

Serve DC concurs in part with this finding.

Of the $331,468 of unallowable match costs associated with Heads Up, Serve DC concurs that
$174,681 of the costs are unallowable.

Serve DC does not concur that the $114,296 in matching funds provided via a grant with the
District of Columbia Children Youth Investment Trust Corporation (CYITC) is unallowable.
Heads Up has received written confirmation from CYITC that the funds it received as non
federal dollars were $44,000 in PY 2004-2005 and $190,150 in PY 2005-2006. Serve DC
believes that the segregation of dollar amounts derived from non federal sources is an adequate
assurance that no federal dollars were reported as matching costs. During the testing period, the
auditing firm was unable to adequately address what, if anything, would provide assurances that
federal funds were not used as match.

Serve DC does not concur that the $37,491 of salaries and benefits spent on staff time for
program development were not allocable to the AmeriCorps grant. In order to maintain a high
quality AmeriCorps program that focuses on tutoring of disadvantaged youth, it is critical that
functions such as program development, strategic planning, and District wide education policy
development occur. Program development involves the creation, review and auditing of Heads
Up's current programs. Ongoing program development is vital to ensure quality programming
that is relevant to the communities Heads Up serves, informed by scientific principles applied to
education and successfully achieves program goals. This process requires a sweeping knowledge
of (in Heads Up's case) educational trends, volunteerism and the status of out of school time
programs nationally and locally.

The Other Program activities stated in the report refer to both the development of education
policy and strategic planning. In order to sustain the partnership with the District of Columbia
Public School system - or the charter school community, Heads Up must understand the civic


                                                                                                Page 9 of 11
 Serve DC Response to the Draft Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                       National and Community Service Grants Awarded to Serve DC



leadership's policy and approach to working with community-based organizations. This
partnership is vital to ensuring access to students and in measuring the success of the program.
In addition to education policy development and monitoring, Heads Up must have a strategy,
goals and accountability measures in place to implement policy directives.

Serve DC believes these expenses are appropriate program costs that relate directly to the
operations of a successful AmenCorps program.

As Heads Up has identified more matching funds than statutorily required, Sene DC is prepared
to modify the final AmenCorps Competitive Financial Status Report and decrease the reported
match expenditures by $174,681.

Serve DC concurs that matching funds of $8,062 were not allowable for the Commission
Administration grant. Serve DC has already revised its final Financial Status Report and
removed these reported expenditures.

In addition, Serve DC will produce a summary of matching requirements and allowable
matching sources for the subgrantees to ensure that all subgrantees are clear on what is
permissible through federal regulations and Corporation provisions.

Serve DC has adopted the following policies relative to Financial Status Reports:

               a. All subgrantee Financial Status Reports are reconciled against Serve DC
                  expenditure tracking worksheets and the District of Columbia Government's
                  System of Accounting and Reporting (SOAR), which is the system of record
                  for all of Serve DC's expenditures.         Any discrepancies on subgrantee
                  F i c i a l Status Reports will be immediately resolved so that the reports agree
                  with the subgi-antees' expenditure reimbursement requests.
               b. A checklist has been developed that must be completed before a Financial
                  Status Report can be submitted. The checklist ensures that records from
                  SOAR are printed, my costs that have yet to appear in SOAR are clearly
                  identified and documented, and that there is a clear crosswalk between SOAR
                  expenditures and Financial Status Report expenditures. As a final step in the
                  checklist, the Serve DC Executive Director will review and approve before the
                  Financial Status Report is submitted to the Corporation.
               c. Serve DC recognizes the critical importance of submitting timely Financial
                  Status Reports to the Corporation and receiving timely Financial Status
                  Reports from its subgrantees. The Deputy Director for Grants and Operations
                  is tasked with ensuring all Financial Status Reports are submitted to the
                  Corporation and the AmeriCorps Program Manager is tasked with ensuring
                  subgrantees submit the Financial Status Reports and Progress Reports to Serve
                  DC. For subgrantees that do not submit timely progress or financial status
                  reports, Serve DC will be instituting corrective action measures including the
                  holding of reimbursement funds until the outstanding reports are received.



                                                                                               Page 10 of 11
  Serve DC Response to the Dratl Office of the Inspector General's Agreed-Upon Proceduresfor Corporationfor
                        National and Community Service Grants Awarded to Serve DC




Findinc 11: Serve DC did not ensure that subcrantees comulied with AmeriCorus
requirements.

Serve DC concurs in part with this finding.

Serve DC did not ensure that the Earth Conservation Corps paid members the minimum living
allowance required by federal regulations in PY 2004-2005 or ensure that the Earth Conservation
Corps entered all members into WBRS. For PY 2005-2006 and as of May 25, 2007, Earth
Conservation Corps has paid members a living allowance of $10,900, which is greater that the
minimum living allowance.

Serve DC concurs that the Heads Up Living Allowance payment schedule was not consistent
with the AmeriCorps provisions. Heads Up has revised their payment schedule, which was
submitted to the Corporation for review and approval. In order to ensure that all programs
comply with this payment provision, Serve DC now requires programs to submit their living
allowance payment schedules annually. Serve DC will use the payment schedule to verify living
allowance expenditures listed in monthly reimbursement submissions to ensure compliance with
this provision.

Serve DC has already taken several steps to strengthen the monitoring of subgrantees. In
August 2007, Serve DC facilitated the 2007 AmeriCorps*State Program Director Institute.
During this session, Serve DC provided the 2007-2008 Serve DC AmeriCorps*State Program
Director Handbook which outlines policies and procedures relative to member, program and
financial management as well as standardized tools to address member enrollment/exiting,
budget modification, and grantee audit analysis. Moving forward, Serve DC will continue to
conduct an annual Institute to ensure grantee sites are consistent in their program management
activities.


Finding 12: Serve DC did not adequatelv document reviews of subsrantee OMB Circular A-
133 auda reoorts.

Serve DC concurs with this finding. Although Serve DC annually requests that programs
submit their A-133 or other applicable audits via the grant application or monitoring site visits,
the results of reviewing the audits were not documented in programs' grant files. Serve DC has
revised its subgrantee audit review procedures to include a written statement for the grant file
noting any issues identified and the applicable responses ftom the subgrantee.




                                                                                                Page 11 of 11
                      APPENDIX B

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
